<html>
<title> - NATIONAL SECURITY REFORM: IMPLEMENTING A NATIONAL SECURITY SERVICE WORKFORCE</title>
<body><pre>[Senate Hearing 111-233]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-233
 
  NATIONAL SECURITY REFORM: IMPLEMENTING A NATIONAL SECURITY SERVICE 
                               WORKFORCE 

=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 30, 2009

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

51-023 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 











        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana
RONALD W. BURRIS, Illinois
MICHAEL F. BENNET, Colorado

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          LINDSEY GRAHAM, South Carolina
ROLAND W. BURRIS, Illinois
MICHAEL F. BENNET, Colorado

        Lisa M. Powell, Chief Counsel and Acting Staff Director
             Joel C. Spangenberg, Professional Staff Member
             Jennifer A. Hemingway, Minority Staff Director
                   Benjamin B. Rhodeside, Chief Clerk















                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Akaka................................................     1
    Senator Voinovich............................................     3

                               WITNESSES
                        Thursday, April 30, 2009

Nancy H. Kichak, Associate Director, Strategic Human Resources 
  Policy Division, U.S. Office of Personnel Management...........     4
Major General William A. Navas, Jr., U.S. Army (Retired), 
  Executive Director, National Security Professional Development 
  Integration Office.............................................     6
Ronald P. Sanders, Ph.D., Associate Director of National 
  Intelligence for Human Capital, and Intelligence Community 
  Chief Human Capital Officer, Office of the Director of National 
  Intelligence...................................................     7
Hon. Bob Graham, Former Senator from the State of Florida, and 
  Chairman, Commission on the Prevention of Weapons of Mass 
  Destruction, Proliferation and Terrorism.......................    21
Ambassador Thomas R. Pickering, Former Under Secretary of State 
  for Political Affairs, U.S. Department of State, and Guiding 
  Coalition Member, Project on National Security Reform..........    23
James R. Thompson, Ph.D., Associate Professor, and Head, 
  Department of Public Administration, University of Illinois-
  Chicago........................................................    25

                     Alphabetical List of Witnesses

Graham, Hon. Bob:
    Testimony....................................................    21
    Prepared statement...........................................    63
Kichak, Nancy H.:
    Testimony....................................................     4
    Prepared statement...........................................    35
Navas, Major General William A., Jr.:
    Testimony....................................................     6
    Prepared statement...........................................    38
Pickering, Ambassador Thomas R.:
    Testimony....................................................    23
    Prepared statement...........................................    73
Sanders, Ronald P., Ph.D.:
    Testimony....................................................     7
    Prepared statement...........................................    48
Thompson, James R., Ph.D.:
    Testimony....................................................    25
    Prepared statement...........................................    85

                                APPENDIX

Article titled ``Disease and Terror,'' submitted for the record 
  by Mr. Graham..................................................    88
Questions and Responses for the Record from:
    Ms. Kichak with attachments..................................    90
    General Navas................................................   104
    Mr. Sanders..................................................   107
    Mr. Graham...................................................   109
    Mr. Pickering................................................   112
    Mr. Thompson.................................................   115


                       NATIONAL SECURITY REFORM:
                    IMPLEMENTING A NATIONAL SECURITY
                           SERVICE WORKFORCE

                              ----------                              


                        THURSDAY, APRIL 30, 2009

                                 U.S. Senate,      
              Subcommittee on Oversight of Government      
                     Management, the Federal Workforce,    
                            and the District of Columbia,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:33 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senators Akaka and Voinovich.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. I call this hearing of the Oversight of 
Government Management, the Federal Workforce, and the District 
of Columbia Subcommittee to order.
    I want to say aloha and welcome to our witnesses, and thank 
you so much for being here today. I should tell you that I was 
just notified that we expect to have a vote soon, so we will go 
as far as we can, and possibly there might be a short recess 
and we will continue. So, in the meantime, let me give my 
opening statement.
    Today's hearing, ``National Security Reform: Implementing a 
National Security Service Workforce,'' will examine the need to 
invest in strengthening the Federal civilian and national 
security workforce and proposals to do so.
    Recruiting, retaining, and developing the next generation 
of national security employees is critically important both to 
our current operations and in light of the impending Federal 
retirement wave that we expect. Half of the Department of 
Defense civilians will be eligible to retire within the next 
few years. About 90 percent of senior executives governmentwide 
will be eligible to retire within 10 years. We must ensure that 
the Federal Government is able to attract the best and 
brightest national security workers. As these workers rise to 
more senior levels in government, we must also prepare them to 
work across agency lines in confronting the complex challenges 
that they will probably face. Such a rotation program should 
have a strong focus on training and mentoring participants so 
they get the most from their experiences.
    There are several elements that I believe are critical to 
developing world-class national security employees, which I 
hope the witnesses will address today.
    The first key element is rotational programs to improve 
government coordination and integration. A number of events 
this decade have demonstrated the need for greater coordination 
and integration. These include the terrorist attacks of 
September 11, 2001, the aftermath of Hurricane Katrina, and the 
reconstruction operations in Iraq and Afghanistan. The military 
already has a Joint Duty program which has fostered unified 
effort across military organizations. Likewise, developing a 
rotation program for civilians in national security positions 
can improve coordination and support a more unified effort 
across government.
    I am a strong supporter of rotational programs. In 2006, my 
amendment to start a rotation program within the Department of 
Homeland Security (DHS) became part of the Post-Katrina 
Emergency Management Reform Act. This program is supporting 
integration and coordination efforts within DHS, but we can 
benefit from an even broader, interagency focus on the national 
security workforce.
    Two interagency rotation programs have been created in 
recent years. The Intelligence Community's Joint Duty 
Assignment Program was set in motion by the Intelligence Reform 
and Terrorism Prevention Act of 2004. Today, joint duty 
rotational assignments and a leadership development program 
generally are required for IC employees to be eligible for 
promotion above the GS-15 level. The other rotation program is 
part of the National Security Professional Development Program 
created by an Executive Order in 2007. This program envisions 
the participation of a broad array of national security workers 
at a number of Federal agencies.
    Another key element needed to better develop the national 
security workforce is a stronger student loan repayment 
program. Student loan repayments help the Federal Government to 
attract the best and brightest to government service and to 
encourage advanced education in relevant fields. The current 
Federal student loan repayment program has been underused, if 
you can imagine that, in part because agencies must balance 
funding loan repayments for its employees against other 
priorities. Current operations often are prioritized over 
investing in the long-term development of employees. However, 
recent trends show that agencies are beginning to understand 
the importance of this valuable recruitment and retention tool. 
We must make sure agencies prioritize investing in this 
workforce and that they have funds to do so.
    Similarly, national security fellowships to support 
graduate students could help the Federal Government attract and 
develop national security leaders. Fellowships could be 
targeted to help fill critical national security skills gaps, 
for example, by focusing on graduate students pursuing studies 
in foreign languages, science, mathematics, engineering, and 
international fields. Fellowships could also be used to help 
current Federal employees obtain the skills needed to meet our 
national security requirements.
    Finally, agencies should be required to improve their 
strategic workforce planning to ensure that they have the 
workforce needed to meet national security objectives.
    In 2003, I introduced a bill that would have addressed all 
of these key elements to building a stronger national security 
workforce, the Homeland Security Federal Workforce Act. Many of 
the proposals I have outlined were contained in that bill. I 
hope that today's hearing will provide additional information 
that will be useful in the introduction of a similar bill that 
builds upon the changes that have taken place since then.
    I look forward to hearing from our witnesses today as we 
explore how we can build a stronger, more integrated national 
security civilian workforce.
    Now I would like to call on our Ranking Member, Senator 
Voinovich, for his opening statement.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Mr. Chairman.
    As you know, Mr. Chairman, reforming the Federal 
Government's human capital management has been one of my 
highest priorities as Chairman and now Ranking Member of this 
Subcommittee, and I am thankful for the partnership the two of 
us have forged to tackle these issues which affect the Federal 
Government's most critical asset--its people. I suspect that 
there is not two ranking members or chairmen that have been at 
something as long as we have, and I am glad we have because, in 
order to get change, it takes a while.
    In preparing for today, I was reminded of the March 2001 
hearing I chaired on the national security implications of the 
human capital crisis. The panel of distinguished witnesses that 
day included former Defense Secretary Jim Schlesinger, a member 
of the U.S. Commission on National Security in the 21st 
Century. Secretary Schlesinger concluded, ``As it enters the 
21st Century, the United States finds itself on the brink of an 
unprecedented crisis of competence in government. The 
maintenance of American power in the world depends on the 
quality of the U.S. Government personnel, civil and military, 
at all levels. We must take immediate action in the personnel 
area to ensure that the United States can meet future 
challenges. It is the Commission's view that fixing the 
personnel problem is a precondition for fixing virtually 
everything else that needs repair in the institutional edifice 
of the U.S. national security policy.''
    Eight years later, a great deal of action has been taken to 
improve the human capital management for our national security 
agencies, and we are daily building momentum for future reform. 
In response to the terrorist attacks of September 11, 2001, we 
reassigned personnel, redistributed resources, and reorganized 
agencies in order to make the security of our homeland our top 
national priority. I am not sure that I would have done it the 
way we did, but that is the way we did it.
    We created the Department of Homeland Security. Overall, 
the intelligence community implemented many recommendations 
from the 9/11 Commission. The dangers and opportunities of our 
international environment require us to renew our human capital 
efforts. Creating a more secure, democratic, and prosperous 
world for the benefit of the American people depends on a 
highly skilled national security workforce held accountable for 
their individual performance.
    The Bush Executive Order establishing the National Security 
Professional Development Program (NSPD) provides us with a road 
map for improving collaboration between our national security 
agencies through individual development, better enabling our 
government to carry out what I like to refer to as ``smart 
power.''
    I look forward to hearing the initial results of the 
National Security Professional Development Program from our 
witnesses. It is essential that Federal agencies have all the 
tools necessary to recruit, hire, train, and promote 
individuals with the right competencies.
    The new Administration gives us the opportunity to find 
solutions that reinforce our commitment to the individual 
employee. I look forward to an engaging discussion with our 
witnesses as we consider whether additional workforce reform is 
necessary to meet our national security mission.
    I thank the witnesses for being here.
    Senator Akaka. Thank you very much, Senator Voinovich.
    Both of us welcome our first panel of witnesses to the 
Subcommittee today. They are:
    Nancy Kichak, Associate Director for the Strategic Human 
Resources Policy Division at the U.S. Office of Personnel 
Management;
    Major General William Navas, Jr., U.S. Army (Retired), 
Executive Director of the National Security Professional 
Development Integration Office;
    And Dr. Ronald P. Sanders, Associate Director of National 
Intelligence for Human Capital at the Office of the Director of 
National Intelligence.
    As you know, it is the custom of this Subcommittee to swear 
in all witnesses, so I ask each of you to stand and raise your 
right hand. Do you swear that the testimony you are about to 
give to the Subcommittee is the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Ms. Kichak. I do.
    General Navas. I do.
    Mr. Sanders. I do.
    Senator Akaka. Thank you. Let it be noted in the record 
that the witnesses answered in the affirmative.
    I want our witnesses to know that your full written 
statements will be placed in the record, and I would also like 
to remind you to keep your remarks brief, given the number of 
people testifying this afternoon.
    Ms. Kichak, will you please proceed with your statement?

TESTIMONY OF NANCY H. KICHAK,\1\ ASSOCIATE DIRECTOR, STRATEGIC 
   HUMAN RESOURCES POLICY DIVISION, U.S. OFFICE OF PERSONNEL 
                           MANAGEMENT

    Ms. Kichak. Thank you. Chairman Akaka and Senator 
Voinovich, I appreciate your invitation to be here today to 
discuss national security professional development. We must do 
everything we can to strengthen the government's capacity to 
protect the American people. This includes continually looking 
at ways to improve the ability of the Federal agencies to work 
across organizational boundaries to protect our Nation and 
advance our national security interests. We, at the Office of 
Personnel Management, stand ready to do all we can to support 
this vital initiative.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Kichak appears in the Appendix on 
page 35.
---------------------------------------------------------------------------
    The effort to promote national security professional 
development began in May 2007, with Executive Order 13434, 
which sought to ``promote the education, training, and 
experience of current and future professionals in national 
security positions,'' in Executive Branch agencies so that 
these professionals would be equipped to carry out coordinated 
national security operations with their counterparts in other 
Federal agencies and in non-Federal organizations. It directed 
the creation of a National Strategy for the Development of 
Security Professionals for achieving this objective.
    Once the National Strategy for the Development of Security 
Professionals was issued, the Executive Steering Committee 
developed a NSPD Implementation Plan. Federal agencies, in 
turn, developed their own implementation plans based on the 
National Strategy and the Implementation Plan.
    Executive Order 13434 charges the Director of OPM with 
leading the establishment of a national security professional 
development program that provides for interagency and 
intergovernmental assignments and includes professional 
development guidelines for career advancement. To facilitate 
that development, OPM issued a recommended technical 
qualification for selection into the Senior Executive Service 
positions that are designated as national security professional 
positions. The qualification is for demonstrated ability to 
lead interagency, intergovernmental activities, or comparable 
cross-organizational activities.
    OPM held two forums on the recommended technical 
qualifications in December 2008 and January of this year. We 
cosponsored these sessions along with the NSPD Integration 
Office and shared with the agencies a template for implementing 
the new qualification and provided an opportunity for detailed 
discussion of implementation approaches and issues. Agencies 
were then required to develop their own policies for 
implementing the qualification where appropriate.
    OPM also has a broad oversight role regarding human 
resources policy related to the implementation of the order. We 
recognize that the competencies that national security 
professionals need to have will vary for each mission area and 
organization. Therefore, the particular agencies that employ 
these individuals should, in large measure, determine the 
content of their training and program implementation. OPM is 
responsible for ensuring that training policies, as well as 
other human resources policies, comply with applicable laws and 
regulations, and that the NSPD effort is administered 
consistently within and across agencies. For example, we want 
to make sure that training opportunities do not result in pre-
selection of job candidates.
    OPM has supported national security professional 
development in other ways as well. For example, we continue to 
contribute to the development of web content for the NSPD 
website, and we participate in the National Security Education 
and Training Consortium. The Consortium is a network of Federal 
education and training organizations that support the 
development of national security professionals, including by 
making recommendations for training and educational courses 
that should be available.
    We are prepared to provide ongoing policy support regarding 
the selection, training, and development of national security 
professionals and related matters. This issue is likely to 
remain one of critical importance to the Federal Government and 
the American public for a very long time.
    Thank you again for inviting me, and I will be happy to 
answer any questions.
    Senator Akaka. Thank you very much, Ms. Kichak. Now we will 
hear from General Navas.

TESTIMONY OF MAJOR GENERAL WILLIAM A. NAVAS, JR.,\1\ U.S. ARMY 
 (RETIRED), EXECUTIVE DIRECTOR, NATIONAL SECURITY PROFESSIONAL 
                 DEVELOPMENT INTEGRATION OFFICE

    General Navas. Mr. Chairman, I want to thank you for 
holding this hearing today to discuss the important issue of 
strengthening our Nation's national security workforce. I also 
want to take this opportunity to acknowledge Dr. Sanders' and 
Ms. Kichak's contributions to the National Security 
Professional Development Program as members of the Executive 
Steering Committee during the past year.
---------------------------------------------------------------------------
    \1\ The prepared statement of General Navas appears in the Appendix 
on page 38.
---------------------------------------------------------------------------
    The National Security Professional Development Program 
(NSPD) was established in 2007 by Presidential Executive Order 
13434 to promote and enhance the development of national 
security professionals in 17 Federal agencies. The program was 
designed to facilitate and integrate professional development 
education, training, and interagency experience opportunities 
for individuals who have national security responsibilities. 
Let me state at this time that the current Administration 
strongly supports the intent of this program and is considering 
its way ahead. Although I am prepared to discuss the history of 
the program, it would be premature for me to speculate on how 
this program will be configured or implemented in the near 
future. But please know that serious discussions have been 
ongoing, and once decisions are made, I will be more than happy 
to provide the Subcommittee with an update on the program.
    Mr. Chairman, as this Subcommittee well appreciates, our 
Nation must be able to rely upon a national security workforce 
with the knowledge, training, and interagency experience to see 
the big picture, to connect the dots, to coordinate 
effectively, and to act decisively. We need to develop 
professionals who can operate across agency boundaries and 
understand how the combined efforts of multiple organizations 
are necessary to leverage all of the elements of national power 
and influence. That is precisely why the National Security 
Professional Development Program was established, and I am 
pleased to say that this effort is already underway, although 
there is much more to be done.
    Executive Order 13434 of May 2007, signed by President 
George W. Bush, made it the policy of the United States to 
promote the education, training, and experience of current and 
future professionals in national security positions across the 
Federal Government. A National Strategy expanding on the 
direction of the Executive Order was approved by President Bush 
in July 2007. An Executive Steering Committee, comprised of the 
Secretaries or Directors--or their designees--of 17 designated 
Federal agencies and departments provide oversight for program 
implementation. The Executive Steering Committee, which reports 
to both the National Security Council and the Homeland Security 
Council, is responsible for coordinating cross-agency 
integration and implementation of the program.
    In September 2008, a program implementation plan was 
developed by the Executive Steering Committee and was approved 
by the Assistant to the President for National Security Affairs 
and the Assistant to the President for Homeland Security and 
Counterterrorism. Departments and agencies have developed their 
own implementation plans.
    During the first year of program implementation, 
significant progress has been made, and this sets a good 
foundation upon which the program needs to build. In addition 
to the departments and agencies developing and executing their 
program implementation plans, there are many other important 
steps that have been taken which are highlighted in my written 
statement, and I would be glad to discuss them during the 
question-and-answer period.
    Despite the challenges, I remain optimistic about the 
future of the program and our government's ability to lead the 
national effort to build the national workforce necessary to 
protect the Nation in the 21st Century. The current 
Administration is in strong agreement with the overall intent 
of the program and is developing a way ahead to build on past 
successes while charting new directions where necessary.
    The Administration looks forward to working closely with 
you in a collaborative fashion to help build upon and improve 
this critical program for advancing the vital interests of our 
Nation.
    I welcome any questions that the Subcommittee might have, 
thank you.
    Senator Akaka. Thank you. May I call now on Dr. Sanders.

TESTIMONY OF RONALD P. SANDERS, PH.D.,\1\ ASSOCIATE DIRECTOR OF 
   NATIONAL INTELLIGENCE FOR HUMAN CAPITAL, AND INTELLIGENCE 
 COMMUNITY CHIEF HUMAN CAPITAL OFFICER, OFFICE OF THE DIRECTOR 
                    OF NATIONAL INTELLIGENCE

    Mr. Sanders. Good afternoon, Mr. Chairman. Thank you for 
inviting me to testify at today's hearing on creating a 
national security workforce, and I would also like to thank you 
and Senator Voinovich for your strong, sustained leadership in 
this area. It is my pleasure to update the Subcommittee on the 
implementation of the intelligence community's Civilian Joint 
Duty program, which may serve as a model for developing a 
national security workforce.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Sanders appears in the Appendix 
on page 48.
---------------------------------------------------------------------------
    Per your letter of invitation, I will discuss the 
implementation of that program, including its associated 
challenges in the broader context of the National Security 
Professional Development Initiative, and offer some 
recommendations based on our experiences in that regard.
    As you know, human capital policies are among the most 
powerful levers available to an institution intent on 
transforming its culture, and the IC is certainly no exception. 
The Office of the Director of National Intelligence (ODNI) has 
led the design, development, and implementation of a number of 
ground-breaking strategic human capital initiatives with this 
particular end in mind. The Joint Duty program is one of these. 
It is essential to the community's transformation and the 
creation of a culture of collaboration that is critical to our 
national security.
    Our program is mandated by the Intelligence Reform and 
Terrorism Prevention Act (IRTPA). It authorizes the Director of 
National Intelligence to facilitate the rotation of IC 
personnel amongst its agencies by making ``joint``--that is, 
interagency--duty a condition of promotion to certain positions 
specified by the DNI. Indeed, Congress specifically said that 
the DNI was, to the extent practicable, ``to duplicate joint 
[military] officer management policies established by . . . the 
Goldwater Nichols . . . Act of 1986.''
    Goldwater-Nichols was arguably the most sweeping reform of 
our Nation's military since the National Security Act of 1947, 
and as the impetus for military jointness--it required a joint 
assignment as a prerequisite for flag rank--it serves as our 
philosophical, conceptual, and intellectual foundation.
    Like Goldwater-Nichols and Executive Order 13434, our 
Civilian Joint Duty program is intended to ensure that as a 
minimum, the approximately 100,000 IC professionals, managers, 
and executives come to know firsthand, through one or more 
extended interagency rotational assignments, the entire 
intelligence enterprise to build and leverage the collaborative 
networks that will support its mission. Although joint duty 
assignments are strictly voluntary, we have issued IC-wide 
regulations that say that by October 1, 2010, some form of 
joint duty experience will be a prerequisite for promotion to 
almost all of the IC senior civilian positions. The cross-
cutting challenges of today's IC demand nothing less.
    Thus, we share the same goals as Executive Order 13434, and 
our program has given us a head start in achieving them. 
However, in so doing, we have had to grapple with a host of 
complex implementation and operational issues. Difficult enough 
in their own right, they have been made even more complicated 
by the complex interagency framework in which we operate. 
Professor Jim Thompson on your second panel calls this a 
``federated model.'' Thus, as a community of 17 agencies in six 
different Cabinet departments, we have had to collaboratively 
develop criteria for receiving joint duty credit; procedures 
for advertising, applying for, nominating, and selecting joint 
duty candidates; a process for granting waivers and claims; and 
policies governing how employees on joint duty assignments are 
to be fairly evaluated and considered for permanent promotion 
while away from their home agency. We have also had to 
establish procedural protections and oversight mechanisms to 
ensure that no one is discouraged or penalized from accepting a 
joint tour.
    Now, 3 years since the first of these regulations was 
issued, our Civilian Joint Duty program continues to enjoy the 
strong support of our senior leadership as well as the vast 
majority of our employees. We estimate that well over 3,000 
employees are currently on some type of joint assignment, with 
another 3,000 plus having completed one over the last several 
years. Over 500 senior positions now require joint duty as a 
prerequisite, with several hundred more to be covered this 
fall. No waivers have been requested to date, and only about a 
dozen positions--civilian physicians--have been exempted from 
the requirement. However, we are still in our infancy, and the 
program remains fragile.
    As we help pave the way for NSPD, I would offer some hard-
won lessons learned over the last 3 years.
    First, this requires strong, unequivocal senior leadership 
commitment. Senior agency leaders need to own the program. It 
cannot be seen as an HR program.
    Second, any government-wide rotation program should be 
flexible. Given the diversity of missions and organizations in 
the Federal Government, one size cannot fit all.
    Third, it is imperative that the detailed enabling policy 
and program infrastructure be addressed, including all of the 
myriad administrative details outlined in my written statement. 
Without those details, broad policy pronouncements will not go 
very far.
    And, finally, those details must be built collaboratively, 
with all the stakeholders involved. Here again, Professor 
Thompson has documented the advantages as well as the 
challenges of such an approach.
    The IC Civilian Joint Duty program remains one of the DNI's 
top priorities, and we are pleased to note that in September 
2008, Harvard University's Kennedy School of Government 
recognized it with one of its coveted Innovations in American 
Government Awards. However, the Subcommittee should note that 
the program is but one part of a comprehensive 5-year human 
capital strategy that is intended to renew and replenish our 
workforce, integrating and transforming the IC's organizations 
and cultures to support our vital national security mission. 
That strategy also includes innovations in recruiting, 
including a proposed Intelligence Officer Training Corps based 
on a program originally sponsored by Senator Graham, who is 
also part of the second panel.
    These will all ensure that we have a pipeline of capable, 
committed professionals to meet our mission critical needs. It 
also includes other human capital innovations that are detailed 
in Professor Thompson's report.
    In conclusion, I would note that the success of the 
National Intelligence Strategy depends on our people. It 
requires nothing less than dedicated intelligence professionals 
who are ``enterprise'' in orientation, integrated and joint in 
action, able to lead and leverage collaborative networks that 
are the IC's connective tissue. Our Joint Duty program is a 
cornerstone of that effort.
    Thank you, and I look forward to answering your questions.
    Senator Akaka. Thank you very much. I am going to call for 
a brief recess, and we will be right back. Senator Voinovich 
will probably call us back to order for questions. We are in 
recess.
    [Recess.]
    Senator Voinovich [presiding]. The Chairman asked me to 
reconvene the meeting and start the questions, and so here we 
go. Again, thank you for being here today.
    This is a question to all of you, and it gets back to a 
question I first asked when I came to the Senate, and I sent 
out a letter to 12 agencies, and I asked them, ``How much money 
are you spending on training?'' And 11 came back and said they 
did not know. One came back and said, ``We do know, but we will 
not tell you.'' In order to do the job that we want you to do, 
you have to have the people to get the job done. Do you have 
money earmarked for training in your respective budgets? And 
has it been adequate for you to do the job that we have asked 
you to do?
    Mr. Sanders. Senator, I will speak for the agencies and 
elements of the intelligence community. Since our inception 4 
years ago, almost to this day, we have had three Directors of 
National Intelligence, and they are all on the same page that 
you are. They understand the importance of human capital. They 
have all invested heavily in human capital generally and in 
training. I cannot share budget numbers with you because as you 
know they are classified, but I can tell you that we invest 
millions and millions in language training. Director Blair has 
just committed substantial funds, in the millions of dollars, 
for our Joint Leadership Development program.
    The intelligence community has been blessed with senior 
leaders that understand you have to invest for the long-term 
development of the workforce.
    Senator Voinovich. General Navas.
    General Navas. Senator, our office, as you are aware, is an 
office that does not control any funding or resources and 
basically promulgates policy and provides oversight on how the 
departments and agencies execute that policy.
    Having said that, we need to have an analysis of the 
requirements--the training educational requirements. That is a 
function for the National Security Education and Training 
Consortium and its board of directors to advise the Executive 
Steering Committee.
    Once those requirements are established for participating 
agencies to reprioritize their budgets and give a higher 
priority to the development of their national security 
professionals.
    Senator Voinovich. Have you done that?
    General Navas. No, sir, not at this time.
    Senator Voinovich. Ms. Kichak, OPM has lots of things to 
do. Have you had the resources that you need to do the job we 
have asked you to do?
    Ms. Kichak. I think that I am going to answer that question 
not just for national security professional development, which 
is just now getting off the ground, at least as far as this 
initiative is concerned, but what we are seeing now in the HR 
community that we are working with that enough resources are 
not being devoted to the development of human resources staff 
in the offices, that we believe that training needs a lot more 
attention to develop the kind of folks that are needed to 
recruit and retain the next generation of Federal employees.
    Senator Voinovich. Have you done an analysis of what it is 
that you think the agencies you are working with need in terms 
of resources to do the job that you think that they need to do? 
And if you have, have you communicated it to OMB?
    Ms. Kichak. We have not put a dollar figure on that. We 
have done some analysis of the kind of training we think is 
lacking, and as you know, we have a new Director who is turning 
his attention to that. And so I would expect those 
conversations will happen in the future.
    Senator Voinovich. Now, this is kind of a follow-up for 
you, General Navas. Your testimony discusses the development of 
additional training programs for agency leaders, and given the 
current size of the workforce, short-term stimulus hiring 
needs, retirement projections, and resource constraints, will 
our national security leaders be able to access this training? 
Do we need to increase the number of national security 
personnel to build a training float, as recommended by several 
witnesses on our second panel? It is the same thing we have in 
the State Department today. They need additional people so that 
they can move people off the job they are doing for training, 
and at the same time have enough to fulfill the other 
responsibilities that they have.
    General Navas. Yes, Senator. The issue of the float is a 
valid one, and if you look at the experience in the military, 
one of the reasons that the joint duty assignment and the joint 
professional military education has been successful is that the 
armed service have that float. They call it different, but it 
is about a 10-percent element that they have to send 
individuals to school, to assignments outside their parent 
organization and still not jeopardize their ability to execute 
their functions.
    We are not at that level of flexibility in our civilian 
workforce, and at some point a combination of interagency 
exchanges, and an opportunity to provide additional slots to 
the agencies to be able to send some of their people to these 
assignments. In the case of some of the smaller agencies, you 
may need to have a combination of the space and also the 
dollars to be able to execute that. In the smaller agencies the 
funding becomes critical.
    That is one of the issues that has been discussed in the 
Executive Steering Committee as a way forward. Initially, we 
were concentrating on the senior executive level, SES National 
Security Professionals. We have been able to leverage some of 
the existing courses there. For example, the Army has been 
conducting a program for their senior executive development, 
and they have been very gracious in providing additional slots 
that we offer to the member agencies at no cost except for the 
travel, per diem, and the individual's salary. These are short 
courses that have been conducted, and the individuals that have 
participated have found very valuable.
    Senator Voinovich. OK. How often do you talk with OPM about 
it? I just said does OPM think they have the resources to get 
the job done you are supposed to do. Ms. Kichak said she does 
not think that resources are there that people have been able 
to do it. Have you been discussing that? Because your job is to 
make sure this thing gets done, isn't it?
    General Navas. Yes, sir. And like I mentioned, Ms. Kichak 
is a member of the Executive Steering Committee. She has been 
participating with us, with the other representatives of the 17 
agencies, one of which is Dr. Sanders here as the 
representative of the ODNI.
    The issue is establishing those requirements, which have 
not yet been established. Once the requirements are 
established, then the agencies and departments need to 
prioritize their existing funds. That is an internal function 
of the Secretaries and Department heads to do as they submit 
their budgets.
    Mr. Sanders. Senator, if I may, you missed my eloquent 
statement, but we have about 6,000 people who have already 
completed or who are on interagency joint duty assignments in 
the intelligence community as we speak. We have found that our 
large agencies have enough inherent float in just the dynamics 
of their workforce that they have not needed to budget for 
additional positions. But for the smaller agencies, we have 
created a bank of positions, and DEA and others have used them 
to support joint duty assignments because they are literally 
too small to be able to absorb the loss of a person going off 
on interagency assignment. They use that bank to be able to 
backfill.
    So we have been able to blend the large agencies who can 
absorb it with the small ones who cannot to make the system 
work.
    Senator Voinovich. So your observation should be that Dr. 
Sanders is doing the job he is supposed to do?
    Ms. Kichak. Well, my observation was for HR professionals 
throughout the Federal Government, not specifically national 
security professional development. We have been looking at the 
stand-up of this program and the rotational assignment, and we 
see much of what is here is a very robust training program, not 
that there does not need to be supplemental training, but I was 
not speaking just to the national security professional 
development. And, yes, I would observe that what ODNI is doing 
is robust training.
    Senator Voinovich. General Navas, the National Security 
Professional Development Plan was due September 2008. The 
December 2008 report indicates the plan was still in progress. 
When is the plan going to be finished?
    General Navas. Sir, the Implementation Plan was published 
and approved by the Assistant to the President for National 
Security and for Homeland Security, and it is being 
implemented. Subsequent to that, the agencies developed their 
implementation plans. This is a living document that will 
probably be revised and adjusted, but we have a plan in place. 
The agencies are executing to that plan. The plan calls for 
identifying who are the national security professionals in each 
of these 17 agencies.
    We have identified about 14,000 national security 
professionals within the 17 agencies, GS-13 and above, of which 
1,200 of them are SES's. The numbers for the intelligence 
community are classified and are not included within this 
group.
    The second requirement that we had for the plan was that 
the identified national security professionals would take two 
online courses. Those who had a national response framework or 
a domestic function would take the FEMA online course on the 
National Response Framework. Then we conducted a series, in 
conjunction with FEMA and Homeland Security, of orientation, 
lessons learned and best practices sessions, using the model of 
Hurricane Katrina as the training vehicle. Admiral Thad Allen 
came and spoke to us. Christine Wormuth from the CSIS presented 
her paper on ``Beyond Goldwater-Nichols,'' and then we had 
several sessions from which the participants developed a set of 
keys to success to dealing with in interagency cooperation.
    Subsequently, with the help of the Naval Postgraduate 
School, we developed a similar module for those nontraditional 
national security agencies on the basics of national security, 
the Organization for National Security, the roles and functions 
of the different departments, etc.
    Senator Voinovich. This is all online?
    General Navas. Online, through a national security 
professional development web portal.
    Senator Voinovich. How long has that been in being? And 
have you measured its effectiveness?
    General Navas. Sir, the initial NRF was placed in the Web 
portal around June of last year. The agencies have reported 
their individuals taking the course. The other module was put 
online around September of last year. The agencies are 
monitoring that.
    One of the issues--and it could be a measure of 
effectiveness--was the response that we have had to the forest 
fires and the response that we have had to the catastrophe of 
the bridges in the Twin Cities showed some improvement in the 
interagency coordination.
    We stood up the Web portal, as Ms. Kichak said. This is an 
initiative that is being funded through OPM and OMB through 
existing programs. And we have continued developing the 
requirements for orientation and training.
    Senator Voinovich. Has there been any kind of effort made 
to inquire from the people that are taking the training about 
whether or not they think it is any good and whether they feel 
it is good for their professional development? Is it relevant 
stuff, or is it something they are just looking at and saying, 
``I have got to do this because they told me we have to do it'' 
and, ``Who needs this?''
    General Navas. We did a survey of the participants after 
the four sessions. We had some very good returns. Both modules 
also have a feedback function. It is tracked internally by the 
agencies. We have a master task list and a self-assessment 
scorecard that is produced and reported to our office on a 
quarterly basis by the agencies on how they are tracking the 
implementation tasks.
    Now, one of the issues raised by Dr. Sanders is the concept 
that ``one size does not fit all.'' Not all agencies are the 
same, not all have the same missions. So it is more of 
facilitating and assisting the agencies. Ultimately the 
responsibility of developing their national security 
professionals rests with the individual departments and 
agencies.
    Senator Voinovich. Well, I just think it is a good idea to 
get the folks that are there, particularly if it is kind of a 
same plan for a lot of them, to have them come back and sit 
down and share with you whether or not they think the training 
they are receiving is relevant to the job that they are doing.
    Do you get that kind of feedback at all from your people, 
Dr. Sanders?
    Mr. Sanders. Senator, I will go one step further. In my 
view, this is one of the things that is essential to making a 
broader program work. We actually incorporate these interagency 
leadership skills in our employees' appraisals. So the training 
is a means to an end. Our workforce needs to be equipped and to 
perform better in an interagency context.
    In the IC, we have defined the entire intelligence 
community, not just pieces and parts but the whole IC, as 
requiring those interagency competencies. So we have built it 
into our employee appraisals. We have built it into our senior 
officer appraisals.
    Senator Voinovich. So the thing is they have to take the 
courses as part of their performance evaluation.
    Mr. Sanders. The courses, the assignments, and then they 
have to actually demonstrate the behaviors on the job. That is 
the bottom line.
    Senator Voinovich. And from your point of view, the fact 
that they have had the training, that they are growing in their 
job, and you see the results of that training and the 
performance of the functions you have asked them to undertake.
    Mr. Sanders. Well, again, if you will permit me, I will 
broaden the response. We have seen far more collaborative 
interagency cooperation and teamwork in the intelligence 
community since the advent of the IC Joint Duty program. I 
think our senior leadership gets it. Our newer employees--we 
have more than 50 percent of the IC with 5 years or less of 
service--get this. And our most recent employee climate survey 
results say that now upwards of 84 percent of our workforce 
understands that these kinds of skills are essential to our 
mission.
    And so training is an important part of it. In my view, the 
most important part is this interagency assignment where you go 
walk a mile in another agency's shoes. But it is the 
combination of all those things as well as being evaluated on 
it that will really make something like this work.
    Senator Voinovich. Ms. Kichak, General Navas, the Executive 
Order charged the Director of OPM with leading the 
establishment of this program, and I think all of us know that 
the person that headed it up was Clay Johnson. And just for the 
record, do you agree that the M in OMB should be the person 
that should be the orchestra leader and the quarterback on it? 
And does that person have enough time to do the work that is 
necessary here to provide that leadership?
    Ms. Kichak. I cannot assess whether that is the appropriate 
person to chair the organization or not. I would say two 
things.
    Because this is a national security professional 
development effort, I think that the leadership does have to 
have a role in national security because the training has to be 
and the development of employees has to be focused on national 
security. And I think OPM needs to have a strong role in it 
because these are, after all, employees and they need the 
oversight that OPM can give on these issues.
    Senator Voinovich. So you think the way it has worked is 
appropriate?
    Ms. Kichak. Well, of course, that is all under discussion, 
as Secretary Navas said, but I think that the folks at the 
Homeland Security Council and the National Security Council 
have a valid interest in making sure the leadership reflects 
their oversight.
    Senator Voinovich. Senator Akaka is back. One of the things 
you talked about in your testimony is that the program has not 
been administered consistently within and across agencies. And 
what I would like to know would be what agencies could use 
additional guidance and oversight. And it gets back to what I 
asked you before, doing an inventory of whether they have got 
the resources to do the job.
    Ms. Kichak. We think that each agency, because of their 
varying missions, needs to administer the training differently. 
The training for each mission could be different. We do not 
have any agencies identified who have not done a good job based 
on their mission. We only want to recognize that each agency 
has differing needs in this, and they need to have the 
flexibility to pick the training and administer the training 
appropriate for their employees and their mission.
    Senator Voinovich. Well, I would sure like to--how many of 
the agencies that were out there would have a national security 
dimension in them. You say 17 agencies.
    Ms. Kichak. Seventeen.
    Senator Voinovich. Dr. Sanders has got a little cluster 
there, and that--not a little. It is a pretty big cluster, and 
real important. But the fact is that you have got a thread that 
runs through all of them, and it is, I think, a little easier 
to move and expedite some of these things as contrasted to 
different agencies, as you point out, that have different 
roles. So the challenge there, it seems to me, is a lot more 
formidable maybe in Dr. Sanders' area. And it sure would be 
comforting to me to have a real analysis of that, of where they 
are, and try and see if we cannot up the priority that is being 
given to this.
    Ms. Kichak. Well, when we had the training sessions for all 
of the agencies on how to develop some of their job 
descriptions to take account of the technical qualification, 
all agencies participated, and I believe all agencies did their 
implementation plan. We were there. We worked with all of them. 
It is just that some agencies have a handful of folks working 
on this, where in other agencies, this is a much bigger part of 
their mission.
    Senator Voinovich. They are different agencies, but the 
fact of the matter is to get into dotting the I's and crossing 
the T's. Another suggestion--and maybe you have done it 
already--has Dr. Sanders or any of his people ever been asked 
to look at what is going on in some of these agencies and 
perhaps evaluate them and suggest how they might be helped, and 
maybe you might even have some resources that you could make 
available to them or tell them where to go?
    Mr. Sanders. I have viewed that as our role in the 
Executive Steering Committee. We have been at this 3 years, and 
we have been through the struggles, and we have been able to 
share a lot of lessons learned with Secretary Navas and Ms. 
Kichak and the rest of the members of the Executive Steering 
Committee.
    The notion of creating or requiring some sort of 
interagency assignment as a requisite for SES promotion, OPM 
and Secretary Navas' office sponsored a workshop, and my staff 
was instrumental in putting that together because, again, we 
had established that requirement a couple of years ago and were 
familiar with how it could be phased in.
    Senator Voinovich. So the fact of the matter is that you 
are pitching in and trying to help them because you----
    Mr. Sanders. Yes, sir.
    Senator Voinovich. OK, good.
    General Navas. Sir, if I may, what we are trying to do is a 
transformational process--to create a culture of collaboration 
among these national security professionals to cut across the 
vertical stovepipes and to be able to operate as a national 
security professional across these agencies.
    The idea is to have an understanding through the training 
and education of what that means and then having the experience 
of having participated in the interagency. That should be the 
ultimate goal.
    Now, we have 17 agencies at various levels, very mature, 
the Foreign Service Corps in the State Department, the 
intelligence community since the inception of the office of the 
ODNI; Department of Defense in the military side first, but 
still making great progress in the civilian; Department of 
Homeland Security. They have come together, 22 agencies. They 
have a robust internal system.
    The other nontraditional, if I could use that term, 
agencies like Department of Commerce, Department of Interior, 
they are taking baby steps. What is encouraging is that they 
all banded together, and they produced a common Implementation 
Plan that they share. So they are mentoring each other. The 
larger agencies are also doing that.
    So I think that this is a program that we need to build 
from the bottom up, because at the end of the day our goal is 
to have this culture of national security, writ large. You can 
see what is happening today with the pandemic flu. It involves 
immigration, diplomacy, health, border. I mean, it is the whole 
of government.
    So that is what we are striving for. But this is not easy. 
We have a national security system vintage 1947 that operates 
like a regulated steel mill. And today our enemies act like 
franchises, so we need to be flexible enough to operate in that 
environment.
    Senator Voinovich. Thank you. Senator Akaka, I have had 
almost 20 minutes, so it is all yours. [Laughter.]
    Senator Akaka [presiding]. Thank you very much, Senator 
Voinovich.
    Ms. Kichak, as you know, in 2003 I introduced the Homeland 
Security Federal Workforce Act. Among other provisions, that 
bill included an enhanced student loan repayment program with a 
specified funding stream. The existing student loan repayment 
program, although growing in use by agencies, is still hindered 
by agency budget limitations. The current economic crisis may 
increase the demand for the student loan repayment program 
while decreasing agencies' flexibility to provide program 
funding.
    What is OPM doing to ensure that agencies are providing 
adequate funding for this program?
    Ms. Kichak. What we are doing on student loan repayment is, 
unfortunately, we are not helping them with their funding, but 
we are helping them with the administration of their programs. 
We are reporting on the use of student loan repayment and its 
effectiveness. We are continuing to educate agencies on the use 
of it.
    Senator Akaka. Well, as you probably know, in 2007, over 
6,000 employees participated in that program, and the future 
seems to indicate that we need to expand this program as much 
as we can.
    Dr. Sanders, the IBM Center for the Business of Government 
Report identified a concern by some agencies that those who 
serve in joint duty assignments might be disadvantaged with 
respect to promotions upon their return. What steps has the IC 
taken to overcome this concern?
    Mr. Sanders. We have taken three steps. First, as I said 
earlier, we have built these interagency competencies into 
employee and senior officer appraisals, and we also evaluate 
our senior executives on how well they are promoting the 
program.
    When an employee is on joint duty, in the past they were 
evaluated by their home agency, even though they had left. That 
disadvantaged many, so one of the major rule changes we 
instituted was that for the last 3 years now, as an employee is 
off on an interagency assignment, the gaining agency does the 
evaluation. That is where they are contributing. That is who 
evaluates them. That is who gives them their performance bonus.
    Permanent promotions remain with the home agency, but we 
have set up a very rigorous oversight mechanism. We collect 
quarterly statistics to enforce a policy that says employees 
who are or have been on joint duty must be promoted at rates 
comparable to their peers. Again, a lesson learned from the 
military. So every quarter, we look at promotion rates, how 
many people with joint duty have been promoted, how many 
without, how many total vacancies have been filled, and we are 
doing a pretty good job of maintaining that parity.
    The third requirement, of course, is that we are phasing in 
the mandatory prerequisite for joint duty to be promoted to 
senior executive rank. So that is the ultimate acid test here.
    We already have several hundred positions covered. Come 
October 1, 2010, virtually all of the senior positions in the 
IC--and by the way, we have five different senior services in 
the IC: The regular SES, the Senior Intelligence Service, the 
Senior National Intelligence Service, two senior services in 
the Department of Defense, and the FBI-DEA SES. But all of 
those agencies and all those agency heads have said we are 
going to come together on this requirement and make this a 
mandatory prerequisite.
    Senator Akaka. Well, I am glad to hear that the move is in 
that direction.
    General Navas and Ms. Kichak, the Project on National 
Security Reform recommends the creation of a National Security 
Fellowship Program to recruit and train highly qualified 
individuals for national security service in areas such as 
science, technology, language, and culture.
    Do you agree that a National Security Fellowship Program, 
as described by PNSR, would be an effective recruitment and 
retention tool?
    General Navas. Sir, we have been working together with PNSR 
and particularly with their Human Capital Working Group, and I 
would say that the way our Executive Order and our strategy as 
established today would be compatible with such a program, and 
in the future I hope that would still be the same case.
    Ms. Kichak. Yes, I believe that such a program would be a 
good tool to recruit people with difficult-to-find skills, 
certain languages, etc. So I concur.
    Senator Akaka. Thank you.
    General Navas, the Deputy Director of the Office of 
Management and Budget issued the NSPD Implementation Scorecard 
in December 2008. The Departments of Homeland Security, Health 
and Human Services, and Agriculture had a number of tasks that 
had not yet been completed.
    What mechanisms are in place to ensure that these 
departments complete those tasks?
    General Navas. Sir, as we mentioned earlier, the 
departments and agencies are responsible for the 
implementation. The Executive Steering Committee, and assisted 
by the Integration Office, provides guidance and support. We 
monitor that and assist the agencies, and we had a system, the 
scorecard has a green-amber-red, where amber was a task not 
completed by the time that the implementation plan specified, 
but there was a reason for it, and there was a time to be 
completed where it did not affect the overall program. In those 
very few instances where there was a red was that not 
completing the task by the time expected would have an adverse 
impact, and those were very few, and most of them have been 
resolved.
    Senator Akaka. Thank you for that.
    Dr. Sanders, in your testimony you mentioned that, as part 
of their annual inventory of all senior IC positions, each 
agency involved may exempt senior positions from the joint duty 
requirement. According to policy, this may happen in narrowly 
focused areas of the IC.
    How are you ensuring that agency use of this exemption is 
as narrow as intended?
    Mr. Sanders. The approval of exemptions, as well as the 
approval of waivers in individual promotion actions, resides 
exclusively with the Director of National Intelligence or, for 
DOD agencies, his Director of Defense Intelligence, Under 
Secretary Clapper. So only two people in the intelligence 
community can approve those exemptions.
    And I might add that, to our agencies' great credit, while 
we anticipated a fair amount of requested exemptions, for 
example, for some of our very highly technical positions, 
senior crypt analysts and the like, our agencies only asked for 
a dozen exemptions out of a couple of thousand senior 
positions, and those exemptions involved highly specialized 
medical professionals and physicians. So less than one-
hundredth of 1 percent of the IC senior position population has 
been exempted.
    Senator Akaka. Ms. Kichak, it is important that we recruit 
and retain employees to support our national security efforts, 
of course. Has OPM or the Chief Human Capital Officers Council 
performed a skills gap analysis focused on the national 
security workforce? If so, what were the results?
    Ms. Kichak. We have not performed a skills gap analysis 
specifically for that community. We have been working with that 
community for certain hiring flexibilities for certain 
occupations that they have identified, but we have not, nor do 
I think we would be permitted to because of some of the 
security issues, been able to do an assessment of employees 
needed for the mission of some of the security agencies.
    Senator Akaka. Dr. Sanders, the IBM report observed that IC 
professionals in one element may not have the specialized 
skills needed to succeed in another element. This may be a 
challenge for the IC in its rotation program.
    What have you done to enhance training and mentoring to 
mitigate skill gaps that may emerge in the rotation programs?
    Mr. Sanders. We have done a number of things, but let me 
just recommend one that has, I think, really been key to our 
success to date.
    There are lots of mechanical things you can do to measure 
skill gaps and close them, build them into your training 
budgets. We do all of those things. But when Ambassador 
Negroponte, the first Director of National Intelligence, issued 
the first regulations creating the program, he also 
commissioned our agencies' Deputy Directors as a Leadership 
Development Council, and he gave them the power to oversee all 
of this. They are the ones that actually run the agencies. They 
are the chief operating officers of our agencies. And as I said 
in my testimony, to me the single most important element of 
success is that this be owned by senior leaders. They are the 
ones that set the requirements. They are the ones that are 
going to invest in the future. If it is seen as an HR program, 
its chances of success are diminished.
    That is why I think it is important that OPM and OMB 
maintain the partnership that they have within NSPD--OPM to 
help with the policy piece of it, but ultimately it is OMB and 
bodies like the President's Management Council that will make 
NSPD a success, just as our Leadership Council of Agency Deputy 
Directors has been key to our success in the intelligence 
community.
    Senator Akaka. Dr. Sanders, you testified that 3,000 IC 
employees currently serve on some type of joint duty 
assignment, and that is encouraging to know. However, you state 
that application rates for joint opportunities posted on the 
ODNI website remain low.
    Why do you believe this is? And are you doing anything to 
address that?
    Mr. Sanders. Yes, sir, we are. We are doing two things.
    First, with respect to joint duty postings--and these are 
individual positions that are filled ad hoc--we have expanded 
our website. We are about ready to unveil an unclassified 
version of it because the website we have now is only on our 
high side, our classified system, and the agencies of the IC 
that do not have access have found it difficult to see the 
vacancies and the postings.
    But, actually, I think a more powerful too in this regard 
is what we are loosely referring to as ``joint manning 
documents.'' The National Counterterrorism Center, for example, 
when it was stood up, literally said it was intended to be a 
joint organization, the IC's version of a combatant command in 
DOD. And they went to the individual agencies and said, CIA, 
you owe us X number of intelligence analysts, FBI, you owe us Y 
number of intelligence analysts; build that into your staffing 
plans so that year in and year out you furnish your best and 
brightest to us on rotation--not filling the individual jobs ad 
hoc but filling them through a regular rotation built into the 
agency staffing plans.
    We have found that to be very successful and, in fact, that 
is emerging as the principal way of filling joint opportunities 
rather than through ad hoc individual postings. So that is one 
of our lessons learned, again, that we have passed on to OPM 
and OMB.
    Senator Akaka. Thank you very much.
    General Navas, you state in your testimony that the 
criteria for identifying and designating a position as a 
national security professional position is set at the 
department and agency level. How well does this work? Do 
agencies have any reason to underreport their national security 
professional positions?
    General Navas. Sir, as we mentioned, the determination of 
the mission of the different departments and agencies is an 
evolving issue. It is very clear in the traditional national 
security agencies, like the Department of Defense, Department 
of State, the intelligence community. The other agencies 
sometimes struggle with defining and visualizing what their 
role is in the national security environment, and then 
determining who are the individuals that would be performing 
these functions.
    The Executive Order established a broad enough definition 
that the agencies used; that the report we got was that in the 
17 agencies we have at the GS-13 and above level about 14,000 
national security professionals.
    Now, this is a number that is continously revised as 
agencies better define their mission. As we progress and start 
conducting exercises, training and education, and developing 
scenarios (for example, Project Horizon) that should inform the 
agencies, and thus get a much more granular picture of who are 
the national security professionals are. Right now the 14,000 
that I mentioned; if we could just get them to this training, 
education, and professional development opportunities--that 
would be a major, significant, progress towards our goal.
    Senator Akaka. Well, thank you very much for your 
responses. It will be helpful to this Subcommittee, and I want 
to thank you for being here today and wish you well in your 
future work. We have so much more to do, but we are going to 
have to work together to do it.
    I want to welcome the second panel. It is good to have you 
here with the Subcommittee.
    Senator Bob Graham, Chairman of the Commission on the 
Prevention of Weapons of Mass Destruction, Proliferation, and 
Terrorism.
    Hon. Thomas R. Pickering, Guiding Coalition Member of the 
Project on National Security Reform.
    And Dr. James R. Thompson, Associate Professor and Head, 
Department of Public Administration at the University of 
Illinois-Chicago.
    Welcome to all of you, and as you know, it is the custom of 
this Subcommittee to swear in all witnesses, so I would ask all 
of you to please stand and raise your right hand. Do you swear 
that the testimony you are about to give this Subcommittee is 
the truth, the whole truth, and nothing but the truth, so help 
you, God?
    Mr. Graham. I do.
    Ambassador Pickering. I do.
    Mr. Thompson. I do.
    Senator Akaka. Thank you. Let it be noted for the record 
that the witnesses answered in the affirmative.
    I just want the witnesses to know that your full written 
statements will be placed in the record, and I would also like 
to remind you that your remarks should be brief given the 
number of people that we have as witnesses.
    So, Senator Graham, it is good to have you, and will you 
please begin with your statement?

TESTIMONY OF HON. BOB GRAHAM,\1\ FORMER SENATOR FROM THE STATE 
   OF FLORIDA, AND CHAIRMAN, COMMISSION ON THE PREVENTION OF 
    WEAPONS OF MASS DESTRUCTION, PROLIFERATION AND TERRORISM

    Mr. Graham. Thank you very much, Mr. Chairman and Senator 
Voinovich. It is an honor to be back on this side of the table. 
[Laughter.]
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Graham appears in the Appendix on 
page 63.
---------------------------------------------------------------------------
    You have indicated that our full statement will be entered 
into the record, so I would like to summarize my comments 
around four points.
    First, our Commission on the Prevention of Weapons of Mass 
Destruction, Proliferation and Terrorism has found that this 
issue of a weapon of mass destruction being used someplace in 
the world is real. This is not a fanciful concern, and the 
consequences are grave.
    Second, it is not only an important issue, it is an urgent 
issue. The next 5 years, in our judgment, will be a critical 
time in terms of our efforts to mitigate this potential 
problem.
    Third, the good news is that there are steps that can be 
taken which would have the effect of reducing the probability 
of a weapon of mass destruction being used.
    And, fourth, the role of the Congress is critical and 
central to mitigate the risk of a WMD attack.
    I would like briefly to elaborate on those four points.
    The Commission had three principal findings: First, that 
the United States is increasingly vulnerable to a weapon of 
mass destruction attack, and that we are less secure today than 
we were 10 years ago. Our Commission was composed of nine 
persons--five Democrats, four Republicans, each of whom had 
backgrounds in areas such as the Congress, the Executive 
Branch, the military, the intelligence services, and academic 
areas relevant to this topic. It was our unanimous conclusion 
that our margin of safety is eroding.
    Second, it was also our unanimous conclusion that it is 
more likely than not that there will be a weapon of mass 
destruction used somewhere in the world before the end of 2013. 
So we now have less than 5 years before the window that we 
found was a probability of use of a weapon of mass destruction. 
Shortly after our report was issued in early December 2008, the 
Director of National Intelligence made a statement which was 
very consistent with that probability.
    And, third, that it is more likely that the weapon of mass 
destruction will be a biological rather than a nuclear weapon.
    We think that this current example of the swine flu 
epidemic and the concern that it has created helps frame the 
importance of this issue. This epidemic, as of 11 o'clock this 
morning, had approximately 100 reported and confirmed deaths in 
Mexico. The Mexican Government has ordered the suspension of 
all non-essential activities, including all schools, which 
contain 33 million students. All restaurants and bars have been 
closed. All retail stores have been closed. All museums, movie 
theaters, and outdoor sporting events have been suspended. That 
is what has happened with this event. Imagine if this had been 
a biological terrorist attack which had not killed a hundred 
people, but had killed thousands or tens of thousands of 
people. Imagine what the reaction would be in the country in 
which it occurred and around the world. We think this matter is 
urgent, that time is not on our side.
    Mr. Chairman, I would like to ask to submit for the record 
a piece which is going to appear in the next issue of Newsweek 
Magazine called ``Disease and Terror,'' written by Dr. D.A. 
Henderson, who is the Dean Emeritus of the School of Public 
Health at Johns Hopkins.\1\
---------------------------------------------------------------------------
    \1\ The article submitted by Mr. Graham appears in the Appendix on 
page 88.
---------------------------------------------------------------------------
    In this very informative and, frankly, frightening article, 
Dr. Henderson states that the central driver to attacks is the 
increasing interconnected world in which we live. As the world 
becomes smaller, the impacts of catastrophic events are more 
significant than what in the past would have seemed to be 
sufficient distance away; a geographical level of protection no 
longer is the case.
    I think this urgency of time is particularly important for 
the two areas that you have identified for today's hearing, 
issues of agency collaboration and the development of a 
national security workforce.
    There are steps which can be taken to reduce the 
probability of an attack. These steps can be found in the 
Commission's recommendations.
    First, under the category of the national security 
workforce, the U.S. Government should recruit the next 
generation of national security experts by establishing 
programs of education, training, retraining, and joint duty, 
all with the goal of creating a culture of interagency 
collaboration, flexibility, and innovation. The intelligence 
community should expedite efforts to recruit and streamline the 
hiring process for people with language capability and cultural 
backgrounds, especially those coming from an ancestry in the 
regions of the world from which our greatest threats are now 
emanating.
    Second, to improve interagency cooperation, there should be 
a policy change in the area of sharing of weapons of mass 
destruction, proliferation, and terrorism intelligence. This 
should be a top priority for the intelligence community. An 
acceleration of these efforts is necessary to assure that 
analysts and collectors receive consistent training and 
guidance on handling sensitive and classified information.
    Third, we need to address the weakening science and 
technology base in our nuclear science and biotechnology 
programs. Secretary of Defense Gates recently commented on the 
state of science at our most important National Laboratory, 
Sandia, in New Mexico. He stated that half of our scientists at 
Sandia--the laboratory that is primarily responsible for our 
nuclear program and supporting our efforts in Russia through 
the Nunn-Lugar program--are over 50 years of age, and many of 
those under 50 have limited, or no involvement, in the design 
and development of a nuclear weapon. Within the next several 
years, three-quarters of the workforce in nuclear engineering 
at the National Laboratories will reach retirement age. We have 
an urgent need to begin to rebuild this workforce.
    The President was requested by our Commission within 180 
days of taking office to present to the Congress an assessment 
of changes that are needed in existing legislation to enable 
the intelligence community to carry out its counterterrorism, 
counter-proliferation, and weapons of mass destruction counter 
terrorism missions. I would urge this Subcommittee to ensure 
that the Administration is fully aware of this suggested 
timetable and to be able to present you with such 
recommendations before the August recess.
    The final point is the fact that the Congress must play a 
central role in order to change the intelligence community. 
There is a natural resistance to change within any bureaucracy. 
It is going to take the actions by this Subcommittee and your 
counterparts in other areas affected by this challenge to see 
that real reform is achieved.
    I would like to conclude by asking the question that one of 
our former colleagues, Sam Nunn, has asked, and that is, ``On 
the day after a weapon of mass destruction goes off someplace 
in the world, what are we going to say that we did in order to 
have avoided that now reality?'' That is the question that all 
of us are going to have to face if and when it occurs.
    Senator Akaka. Thank you very much, Senator Graham.
    And now we will hear from Ambassador Pickering. Thank you.

 TESTIMONY OF AMBASSADOR THOMAS R. PICKERING,\1\ FORMER UNDER 
 SECRETARY OF STATE FOR POLITICAL AFFAIRS, U.S. DEPARTMENT OF 
   STATE, AND GUIDING COALITION MEMBER, PROJECT ON NATIONAL 
                        SECURITY REFORM

    Ambassador Pickering. Chairman Akaka and Senator Voinovich, 
thank you for inviting me here to speak today to you on 
national security workforce issues. They are at the heart of 
comprehensive national security reform.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Pickering appears in the Appendix 
on page 73.
---------------------------------------------------------------------------
    The Project on National Security Reform is grateful for 
this Subcommittee's initiative in addressing national security 
workforce issues, including its past efforts with S. 589. 
Evidence of the importance of workforce reform can be found in 
the government's experience in Goldwater-Nichols. Title 4 of 
the Act, which addressed joint personnel policies and added 
training, education, and joint assignment requirements for 
career advancement, was essential to producing the unified and 
joint workforce capabilities of the Defense Department.
    Many talented employees devote their lives to assuring 
America's security. Their achievements occur, however, despite 
rather than because of the system's human capital policies, 
programs, and procedures. Many reforms are needed involving 
structural, process, knowledge management, visioning, strategic 
planning, and resource management decisions and issues. 
Developing a national security workforce, however, will begin 
to create the culture and capabilities needed for other changes 
to occur. In essence, people are central.
    I want to talk about the current human capital challenges 
and then the solutions that we propose. The system does not 
hire, train, educate, or develop the necessary workforce 
adequately to meet the requirements. It is unable to correctly 
allocate workforce capabilities. The cultures and interests of 
the departments and agencies trump the need for interagency 
collaboration. Leaders have not paid sufficient attention to 
building institutional capacity, nor have they paid sufficient 
attention to the interagency mission.
    Proposals for reform. What should we think about in terms 
of rectifying these problems? I would like to discuss eight of 
the principal proposals of the Project on National Security 
Reform for addressing these problems.
    First, develop a National Security Human Capital Strategy 
and an associated Implementation Plan. The strategy and the 
plan are necessary to align human capital capabilities with the 
national security system's programs, needs, and priorities. 
These documents will define the tools, the capabilities, the 
core competencies, and the needs of the national security 
workforce. They will outline both the goals for the workforce 
and the means for achieving the goals.
    Second, create a Human Capital Advisory Board consisting of 
public and private sector experts on human capital and the 
national security system to advise the President and the 
National Security Council (NSC.)
    Third, enact career planning processes and require 
rotational assignments, joint duty. Career planning should be 
used to guide careers and to make position assignments and 
promotion decisions. National security professionals should 
also be required to fulfill extended assignments in departments 
or agencies other than their own. The workforce reform element 
of Goldwater-Nichols and the Foreign Service Officer tenure 
requirements serve as useful models in this area.
    Fourth, enact training and educational requirements. These 
are essential to ensure individuals know how to work with and 
to use all the government's tools to develop and implement 
national security policy. Training should include both 
orientation to the system as well as continuing instruction on 
the system and how it operates. Training and educational 
requirements will assure professionals continue to develop 
their knowledge and talent and make government service more 
appealing.
    Fifth, create professional development programs. Potential 
programs include a national security fellowship, something I 
know you have already thought about a great deal, and a cadre 
of interagency professionals to lead the system.
    Sixth, enact, enhance, and fund the National Security 
Education and Training Consortium. The consortium should 
consist of public and private sector educational institutions 
whose curricula should address the full range of national 
security issues and requirements.
    Seventh, provide tuition reimbursement and loan repayment 
plans to train foreign language speakers, assure technical 
expertise, and other needed competencies. Such programs should 
target both current and graduated students.
    And, eighth, build a professional float for personnel to 
enable career development opportunities. Many departments can 
barely meet their programmatic needs, which gives them little 
or no ability to incorporate systematic education, training, 
and career development opportunities in their programs. These 
opportunities will only succeed if the Congress authorizes and 
appropriates money for a civilian personnel float that will 
allow individuals to take advantage of these career development 
opportunities without having to pull people out of operational 
tasks with no replacements.
    Finally, Mr. Chairman, these proposals will substantially 
improve the system and its ability to support and enable our 
national security workforce. The U.S. Government has a talented 
and dedicated national security workforce. They work incredibly 
hard and with unsurpassed dedication. Too much of their hard 
work is wasted by a dysfunctional system. Working longer hours 
and harder is no longer just the only answer. Our national 
security workforce deserves a better system. Our national 
security and survival, as Senator Graham has made crystal 
clear, requires a better system.
    Thank you, Mr. Chairman. I am submitting a full written 
statement for the record, and I am happy, obviously, to address 
any questions that you or your colleagues may have.
    Senator Akaka. Thank you very much, Ambassador Pickering.
    Now we will hear from Dr. Thompson.

TESTIMONY OF JAMES R. THOMPSON, PH.D.,\1\ ASSOCIATE PROFESSOR, 
 AND HEAD, DEPARTMENT OF PUBLIC ADMINISTRATION, UNIVERSITY OF 
                        ILLINOIS-CHICAGO

    Mr. Thompson. Thank you, Mr. Chairman and Senator 
Voinovich. I appreciate the opportunity to testify before you 
today on national security workforce reform.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Thompson appears in the Appendix 
on page 85.
---------------------------------------------------------------------------
    My colleague, Rob Seidner, who is also here today, and I 
wrote a report for the IBM Center for the Business of 
Government last year titled ``Federated Human Resource 
Management in the Federal Government: The Intelligence 
Community Model.'' The report is about the intelligence 
community's efforts to put into place a common human resource 
management framework across the entire community. That effort 
was driven by the Intelligence Reform and Terrorism Prevention 
Act of 2004, which directed the intelligence community to 
identify a set of common personnel human resource management 
practices. That law, in turn, was driven by the 9/11 Commission 
report, which found a need for enhanced collaboration across 
the intelligence community and which determined that a common 
human resource management framework would contribute to 
enhanced collaboration within the community.
    The Office of the Director of National Intelligence has 
proceeded to drive a process whereby all the agencies within 
the intelligence community have participated in an effort to 
develop this framework. One of the most important elements of 
that framework is the intelligence community's joint duty 
program, modeled after that in the armed services.
    It is too early to say definitively whether or not that 
program has been a success, but we think the early signs are 
auspicious. Most importantly, for the purpose of this 
discussion, we think there are some important things that can 
be learned by the national security community from what the 
intelligence community has experienced to date.
    First and foremost, I would like to re-emphasize a point 
made by Dr. Sanders in the first panel, which is that for a 
joint duty program to succeed, it is important that there be an 
infrastructure in place. For example, within the intelligence 
community, before they implemented the joint duty program, they 
put into place a common set of performance elements across all 
the intelligence agencies so that when a senior officer in one 
agency goes on temporary assignment in another agency, he or 
she knows that he or she is going to be appraised according to 
the same elements as in his or her home agency.
    Another issue is the ``out of sight, out of mind'' issue, 
which was referenced in the first panel. This refers to a 
concern by some intelligence officers that if they leave the 
agency for some period of time, they will be forgotten when 
opportunities for promotion come around. And so, as Dr. Sanders 
referenced, the ODNI has put into place an effort to monitor 
the promotion rates for those who are on joint duty as well as 
those who are not on joint duty.
    Also as referenced in the first panel, there is this issue 
of a personnel float. As the ODNI went around to the different 
agencies trying to encourage the officers to participate in the 
joint duty program, what they often heard was, ``Well, my 
manager or my boss will not let me go,'' because the boss, of 
course, driven by mission considerations, was reluctant to let 
the person go on joint duty. So it is important that there be a 
personnel float so that the agency can fill in behind these 
people that are on joint duty.
    Perhaps most importantly with regard to how the 
intelligence community has proceeded with its joint duty 
program is that the program was designed in a collaborative 
manner. Contrary to how things usually work in the Federal 
Government--where things are designed at the top and, by and 
large, imposed on the various agencies--in this case, because 
the ODNI was structured, without direct line authority over the 
individual agencies, the Office of the Director of National 
Intelligence was forced to engage in a collaborative process 
with the agencies whereby they had to come to consensus on the 
elements of the joint duty program. And as we talked to the 
human capital officers in the different agencies, we found a 
great deal of support for the program, largely based on the 
fact that it had been a collaborative process and that they had 
all had an opportunity to contribute to its design. So we think 
that is an important element and something to be learned by the 
national security community as well.
    But it is also important that there be a central entity 
promoting and pushing the process, which, of course, within the 
intelligence community was the Office of the Director of 
National Intelligence itself. They were pushing the process. It 
is not quite clear within the national security community which 
entity would serve the purpose of making sure that the process 
moves and that the effort comes to successful fruition.
    One possibility would be, of course, the National Security 
Professional Development Executive Steering Committee, which 
has already been created by Executive Order 13434. I have 
speculated in my testimony that one option that might be 
considered would be to actually allow the central management of 
the SES-ers within the national security community by this 
board, by the National Security Professional Development 
Executive Steering Committee. As it is now, the careers of 
these officials are, of course, managed by each individual 
agency.
    Senator Akaka. Thank you very much, Dr. Thompson.
    Senator Graham, in your testimony, you urged Congress to 
take the lead in reforming how we recruit, develop, and retain 
the national security workforce for the 21st Century. Congress 
previously has taken the lead in establishing joint duty 
programs for military officers and in the IC. In 2003, I 
introduced legislation that would have established a similar 
program for national security workers.
    Do you believe that the Goldwater-Nichols Act provides a 
good model for the establishment of an effective national 
security interagency rotation program?
    Mr. Graham. Yes, and I think the history of Goldwater-
Nichols is also instructive. Prior to 1947, each of the major 
military branches had its own Cabinet-level Secretary. In 1947, 
the Department of Defense was established with a Secretary of 
Defense who essentially sat on top of what had been two 
organizations, but became three with the establishment of the 
Air Force.
    It took from 1947 until 1986 to make the conversion from 
that organizational chart to what Goldwater-Nichols provided 
for, which was organizing around the principle of regional 
combatant commands and requiring joint duty among the branches 
to staff those various combatant commands. I do not think that 
we have 30 years to wait to act on the issue that is before us. 
I think we have got to move with a far greater sense of 
urgency.
    Frankly, I am discouraged that your legislation, which has 
many very important components, was introduced in 2003 and we 
are now at April 30, 2009, talking about it as something that 
should be done rather than what we should be doing here which 
is evaluating how well it is being implemented.
    So I hope that you, Mr. Chairman, and Senator Voinovich 
will continue with tenacity and, if necessary, aggressiveness 
to move this forward, because time is not our ally.
    Senator Akaka. Thank you very much, Senator.
    Ambassador Pickering, in your testimony you state that a 
National Security Human Capital Strategy and a National 
Security Strategic Human Capital Implementation Plan would 
align national security goals through program execution. The 
National Security Council would likely provide this guidance.
    How do you foresee the National Security Council working in 
partnership with the Executive Steering Committee, the 
interagency group charged with implementing this program?
    Ambassador Pickering. Thank you, Mr. Chairman. I think that 
these recommendations are predicated on another set of 
recommendations which recommend, in fact, that the National 
Security Council do for the country at large our strategy, our 
budgeting and programming guidance, so that, in fact, the 
agencies in the national security cluster of agencies would 
have a common effort. This would be done with the full 
participation of the agencies rather than a top-down dicta.
    Once we see, in fact, where an Administration wishes to go, 
we then have some better ideas of what personnel resources are 
required to be brought to bear to deal with those, and the 
personnel strategy would answer that question. Then, obviously, 
beyond that, which is policy, comes implementation. And we feel 
very strongly that an implementation plan would be required--
again, with the full participation of the agencies.
    As the national intelligence establishment has shown us, in 
order to have buy-in, you have to have participation, and this 
is extremely important. But we all demonstrated in the past in 
many different ways that this can happen. And so this kind of 
an approach with planning incorporated at an early stage I 
think is an efficient way. And certainly the bodies that you 
mention would be very important players in this process.
    Senator Akaka. Thank you, Ambassador.
    Professor Thompson, in your report you identify the Federal 
Bureau of Investigation and the National Geospatial 
Intelligence Agency as agencies that have been able to work out 
the skills gaps among individuals rotating between agencies.
    Do you have any additional information about how those 
agencies were able to overcome these potential skills gaps?
    Mr. Thompson. Mr. Chairman, I do not specifically have 
information on those two agencies. My general observation would 
be that at some level the job becomes predominantly one of 
leadership, and that leadership skills that are relevant in one 
context could also be relevant in another context. If one is a 
good leader within the CIA, presumably one can be an effective 
leader within the FBI or the National Geospatial Intelligence 
Agency.
    So I think at the SES level we are predominantly talking 
about management and leadership skills that can, in fact, 
translate across agency lines. In some cases, there are issues 
relating to technical skills, but, in general, with possibly 
some exceptions, I think those kind of gaps can be overcome.
    Senator Akaka. Thank you. We will have a second round. 
Senator Voinovich, your questions.
    Senator Voinovich. First of all, I would like to thank all 
of you for being here. I apologize I was not here, Senator 
Graham, at the beginning of your testimony. It is good to see 
you again. And, Ambassador Pickering, it is good to see you. 
And, Mr. Thompson, thanks for coming over.
    Mr. Thompson, you had a chance to hear Mr. Sanders talk 
about what they were doing at DNI, and he has 18 agencies that 
are under his jurisdiction. And I heard the testimony of 
Senator Graham, and it did not seem to reflect what Dr. 
Sanders' testimony was in terms of what they are doing over in 
his shop. I would like to get your observations on that.
    And I will also ask you, Senator Graham, when you were 
making the point about getting some of this stuff done, have 
you distinguished between what is being done in the 17 agencies 
outside of the DNI versus what they have been doing?
    Mr. Thompson. Again, our conclusion based on our interviews 
and the data that we collected was that, to a large extent, the 
effort within the IC has been substantially successful in terms 
of inducing a fairly significant level of interagency 
collaboration, at least on the human resource element of their 
efforts; and that, again, it is largely attributable to the 
fact that the ODNI was forced to engage in a fairly 
collaborative effort to design this new framework and to design 
these specific policies.
    As a result, there is a very substantial and significant 
level of buy-in by the individual agencies, which historically 
have been very autonomous and somewhat insular in their 
approach to human resource management. So the fact that we 
found as high a level of buy-in to the new framework as we did, 
I think, is an encouraging sign. The fact that it appears to 
have been sustained over the Presidential transition is also an 
encouraging sign because efforts like these, which otherwise 
induce resistance are often lost when there is a transition 
from one Administration to the next.
    Senator Voinovich. Well, I am really pleased that Mr. 
Sanders is there and continuing. One of the things that happens 
around here is that when we take on transformation, and then it 
is 6 months or 7 months before somebody else takes their place, 
and you lose the momentum that you have. Mr. Sanders, keep it 
up.
    Your observations--and I did not give you a chance----
    Mr. Graham. Senator, to answer your question, the answer is 
yes. In the report from our Commission called ``World at 
Risk,'' we identified the progress that has been made in the 
intelligence community as one of the most significant positive 
signs, and in many ways a road map for other agencies that 
needed to move aggressively in that direction. And I want to 
also say that, in addition to the reasons that Dr. Thompson has 
given for the ability of the intelligence community to achieve 
its success, do not overlook the value of having some very 
competent and capable people such as Dr. Sanders, running the 
systems. Our Nation is fortunate to have him in the position 
that he is occupying.
    Ambassador Pickering. Senator Voinovich, could I make a 
couple of points on your question very briefly?
    Senator Voinovich. Yes.
    Ambassador Pickering. Certainly there is no question at 
all, I think all of us agree that the intelligence community is 
a model that now should be spread to the rest of the national 
security group of agencies. I would also want to tell you with 
some humility that for the last 50 years, 60 years, our 
embassies have operated in an integrated way--not perfectly, 
but they have drawn from sometimes as many as 40 agencies. They 
have all been working under the authority of the ambassador. 
You provided for that here in the Congress. It has been 
extremely important. It is the first example, I think, of 
across-the-board national security working together 
arrangements. They have had their problems, but in many cases 
they have done extremely well. And obviously this critical 
question of leadership, willingness of agencies to cooperate 
and be part of a team has been a significant contribution to 
that kind of activity. The problem has been how do we get that 
in Washington.
    Senator Voinovich. Well, what you are saying to me--now, as 
I travel the country, that we have located people in the 
intelligence community at those places, which I guess has not 
happened in the past. What you are saying is a good idea. The 
one thing I am interested in--in fact, I brought to the 
attention of Secretary Clinton, is that the report from the 
Academy of Diplomacy on Foreign Affairs budget for the future, 
and she was before us today in Appropriations, and they are 
asking for $7.5 billion out of the supplemental to do some 
things, and one of the things in the report that was made, if 
you will recall, was that they needed enough people so that you 
could get a float in the State Department. And today, because 
of the lack of resources, that has not been available.
    It would seem to me that if we are going to deal with this 
problem the way we would like to, each of the agencies need to 
be looked at in terms of the human capital commitment that has 
been made in the agencies, and also whether or not you have 
some folks there that, when they leave, they are not being held 
there because their boss says, ``We do not want you to go 
because if you go, we are not going to be able to get the job 
done.'' And so it is going to take--when we had Ms. Kichak in 
here, somebody has to go in there in each of these agencies and 
examine it, where are you at, how many do you have, and what is 
the program. And I think that in DNI and what Mr. Sanders has 
done, it is a leadership thing.
    I have to tell you, Senator Graham, Senator Akaka and I, 
that is all we have been concentrating on over here, is human 
capital. I think that probably in the last 10 years we have 
made the largest change in Title 5 since 1978. But a lot of 
what needs to be done is part of leadership. And I know Clay 
Johnson seemed to be interested in it, but I would be 
interested in your observations about where do you get the 
leader that is going to make sure that this gets done. Where 
should that person be? And how should it be organized so that a 
year from now we can say that some significant progress has 
been made?
    Ambassador Pickering. We have to start on this, I think, at 
the very top. The Project on National Security Reform, in fact, 
said that the President has clearly wanted--needs and wants to 
need to have the national security restructure reflect how and 
in what way the 21st Century provides the challenges. So I 
think it is very much at that level that you have to have it. 
The Cabinet Secretaries have to know that this is the kind of 
direction which people want to go.
    There needs to be, I think, great care in this process 
because the Cabinet departments and agencies have the funding 
and the personnel to carry out many of the implementation 
tasks. That cannot all be taken away from them and put into 
some other box where, in fact, then we have to come back to you 
and reinvent the entire government. But there is, I think, a 
crying need for training, for education, and, indeed, for 
preparation for people to work even more vigorously on an 
interagency basis, on a cooperative basis, on a whole of 
government basis than we have seen. The intelligence community 
is leading the way across the intelligence community, and I 
think that the Defense Department has led the way within its 
own structures. Now is the time to bring the rest of the 
civilian portions of the government together and the national 
security cluster of issues to do everything we can to improve 
that efficiency. But I think it has to be something that the 
President has to say he wants.
    Senator Voinovich. Well, should it be out of OMB?
    Ambassador Pickering. OMB has an important role because 
money lubricates all work in the government. And OMB does not 
run the President. The President runs OMB. And the President, I 
think, can make it very clear. I think cooperation between the 
National Security Council and the Office of Management and 
Budget is essential to make this happen, just as you have to 
bring in the key Cabinet departments. They have to be part of 
the answer to the problem. They do not become--if they do not, 
they become part of the problem.
    Senator Voinovich. Thank you.
    Senator Akaka. Thank you very much. There has been a vote 
that has been called, and I would like to ask a final question 
on my side, and any final question you may have.
    Senator Voinovich. Go ahead.
    Senator Akaka. I thank you very much for your testimonies. 
This question is to the three of you, and what I want to ask 
you to do is please list your top three recommendations for 
ensuring that we have a strong national security service 
workforce.
    Mr. Graham. First, we need a clear set of what our 
expectations are. We still have a woefully deficient number of 
people in our national security agencies who can speak the 
languages of the regions of the world from which our greatest 
threats are coming, and who understand the history and culture 
of those regions. That is illustrative of a goal that must be 
clearly articulated and monitored by the Congress. Are we 
making progress in building the national security workforce we 
need?
    Second, we need to have a regular pipeline. I am a great 
advocate of the military's ROTC approach where it is able to 
assure an adequate number of young men and women coming into 
the Officer Corps of all of our military services. I think we 
need something analogous to that for our other national 
security agencies.
    And, third, once we get people into these agencies, we need 
to understand the importance of maintaining and expanding their 
professional competencies. We were told in our Commission that 
the average military officer will spend as much as 25 percent 
of his or her time during their period in the military in some 
form of training. That percentage is dramatically lower for 
most of our other national security agencies. I think we need 
to try to use the military example as the point at which we are 
trying to move and assuring the continued professional 
development of the people that we have recruited and hired into 
our national security agencies.
    Senator Akaka. Thank you, Senator Graham.
    Ambassador Pickering. I will try to be brief because I 
think they reflect what Senator Graham has said. I think we 
first need to know what it is we have to do, and that obviously 
is a principal question. Without knowing what it is we have to 
do, any reform will or will not get us there.
    Second, we need the plans and programs, many of which you, 
Mr. Chairman, and Senator Voinovich have already proposed, that 
are going to get us there--things like joint duty, which we 
know can work and has worked and will continue to work, much 
better training.
    I have in my career learned two languages from the bottom 
up, had one polished, and studied five more. And my feeling is 
that that kind of ongoing training and education is critically 
important. For the State Department and other agencies, they do 
not have enough positions to do training without pulling people 
out of the line. And everybody is either on the line or on 
training. And so we badly need help across, I think, the 
spectrum of national security agencies to find a way to provide 
for that. The State Department estimated they need 1,200 
people--positions for 1,200 people adequately to do the 
training and the other rotational assignments that are 
critical. So the programs are very important.
    Then, finally, the funding. These are not big-dollar items. 
They are really critical items, and they involve investment in 
the long term, as Senator Graham has said. If you can teach 
somebody to speak a foreign language, you can use them for the 
rest of their lives in many different assignments centered 
around that capability. And, of course, we know we have still 
huge shortages. We had in Arabic, and it continues to be large. 
We have in many of the languages in the areas where the 
terrorist threat is larger, in Farsi, Persian, Urdu, and Hindi, 
and other languages where we can continue, I think, to expect 
troubles coming at us.
    And so funding programs and understanding where it is we 
want to go are my three top priorities.
    Senator Akaka. Thank you. Dr. Thompson.
    Mr. Thompson. Mr. Chairman, I would actually focus more 
broadly, and I would focus on the structure of the SES itself, 
going beyond just the national security professional workforce, 
which is, I think, there is a general consensus that the SES 
has not achieved its original vision as put forth in the Civil 
Service Reform Act of 1978, which is that it was intended to be 
a corps of generalist managers and executives whose careers 
would routinely take them across agency lines so they would get 
a broad perspective. It has never achieved that mission, and 
that is the case largely because the careers of these 
individuals are managed at the departmental level.
    So my first recommendation would be look at the option, 
which is what they do in Great Britain, whereby the careers of 
the senior executives are managed centrally, by a central body, 
of which OPM would have to be a part, maybe OMB or whatever, 
but to actually look at that model where the loyalty of these 
individuals is not so much to their individual agency but to 
the service, as a service. So they act in ways that induce 
interagency collaboration.
    So that would be my first recommendation, to look at the 
structure of the SES as a whole and at least contemplate the 
option of moving towards the British model.
    Then the other issue, of course, is that which Senator 
Voinovich has emphasized, which is training. We have 
systematically underinvested in training in the Federal 
Government. I think having a more centralized model might 
facilitate expanded investment in training, at the Executive 
level as well as at subsidiary levels.
    Senator Akaka. Thank you very much.
    Senator Voinovich, any last comments or last questions?
    Senator Voinovich. Senator Graham, who in the 
Administration is going to read your report? I notice it is not 
a real big report, so somebody should be able to read that, I 
think, maybe in a couple of hours.
    Mr. Graham. We briefed President Bush in December on this 
report. We met subsequently with Vice President-to-be Biden, 
who was given the point on this issue for the Administration. 
We have met with the leadership of both the House and the 
Senate, so I believe that the significance of this challenge 
has been heard by the people who have the greatest 
responsibility and opportunity to increase our level of 
security.
    Senator Voinovich. That is good news. Senator Akaka and I 
can talk about trying to figure out how we are going to 
quarterback this or oversight it to make sure that it gets 
done. I think the first test is going to be what the State 
Department does. It is going to be that--that will be the first 
test: What are they willing to do over there? And do they get 
it? I think they know they need more people, but we will see 
how they are doing. And Ms. Kichak was here, and I think we 
ought to have her come back and tell us exactly what her 
evaluation is in each of the departments and what needs to be 
done, because this stuff has all got to be reflected in 
somebody's budget.
    Thank you very much for being here. We will follow up.
    Senator Akaka. Again, let me say thank you very much to 
this panel. You have helped us. Your comments have been great. 
It will help this Subcommittee. I am planning to introduce 
legislation that provides effective tools to recruit, retain, 
and develop national security employees, and your responses 
will help us do that as well.
    The hearing record will be open for one week for additional 
statements or questions other Members may have. Again, thank 
you so much for your help to this Subcommittee.
    This hearing is adjourned.
    [Whereupon, at 4:35 p.m., the Subcommittee was adjourned.]















                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

                                 <all>

</pre></body></html>
